Memorandum from the Office of the Inspector General



June 14, 2007

Tom D. Kilgore, WT 7B-K

REQUEST FOR FINAL ACTION – SPECIAL PROJECT 2007-016F – REVIEW OF
TVA'S ETHICS AND COMPLIANCE PROGRAM



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned, have
been included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise
us of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Lisa H. Hammer, Director (Acting), Financial
and Operational Audits, at (865) 632-4731 or me at (865) 632-6309. We appreciate the
courtesy and cooperation received from your staff during the review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

LHH:SDB
Attachment
cc (Attachment):
      Maureen H. Dunn, WT 6A-K
      Peyton T. Hairston, Jr., WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      OIG File No. 2007-016F
Ethics and Compliance
 Assessment for TVA
      Objective, Scope and Methodology
•   Objective
    – Conduct a program evaluation of TVA’s current Ethics and
      Compliance Program and compare to leading practices in publicly
      traded companies.
•   Scope and Methodology
    – Reviewed relevant program documentation;
    – Interviewed key executives; and
    – Compared TVA activities to leading practices.




                                                                        1
                         Definitions
•   Ethics: The standards for overall good behavior of both
    individuals and the organization, based on generally accepted
    views of correct behavior and the fair treatment of others, i.e.,
    “the spirit of doing the right thing.”
•   Compliance: The fulfilling of specific requirements, frequently
    defined by an outside authority, i.e., “following the letter of the
    law or regulation.”




                                                                          2
    Why Do Organizations Need Ethics Programs?
•    The immediate need:
      – Significant business scandals generated public reactions.
      – The U.S. government responded: Sarbanes-Oxley (SOX), amendments to
        the Federal Sentencing Guidelines for Organizations, more regulations,
        increased regulatory resources.
      – Greater scrutiny of business behavior: the public now distrusts “big
        business.”
      – The impact of unethical behavior is magnified by instant, wide-ranging
        communications.
      – Reputations can be damaged immediately.
•    The long-term benefits:
      – Most people want to do the right thing – ethical organizations attract good
        people.
      – The evidence is in – good organizations outperform their peers in business
        measures over time.
      – Our free market system operates on trust, and trust makes
        business/commercial efforts both more effective and more efficient.
                                                                                      3
                                       Background




                                                                                                                                                   :.
                                                                                                                                                 pl
                                                                                                                                                m
                                                                                                                                             Co
                                                                                                                                         d
                                                                                                                                        an
                       Leadership: making ethics and




                                                                                                                                  s
                                                                                                                                ic  h
                                                                                                                                 Et
                    compliance an integral part of business




                                                                                                                              of
                                                                                                                            s
                                                                                                                         er
                                                                                                                       iv

                                                                                                                     sk
                                                                                                                    Dr

                                                                                                                   Ri
                                                                                                                  e
                                                                                                                Th

                                                                                                               nd
      Compliance: the Letter, the Targeted Actions




                                                                                                             a
                                                                                                           y
                                                                                                  oc olic

                                                                                                         s
                                                                    VI.




                                                                                                      se
                                                                                                       P
                 II.          III.         IV.                  Individual




                                                                                                    es
    I.                                                V.
            Information   Organiza-     Industry              Responsibility
Financial                                           Market-




                                                                                               Pr
             Privacy &      tional      Specific/              (conflicts of
Reporting                                           Facing
              Security    (internal)   Regulatory                Interest,




                                                                                            le
                                                               credentials)




                                                                                          op
                                                                                       Pe


                                                                                       gy
                                                                                     lo
                        Ethics: the Spirit,
                             Ethics:




                                                                                   no
                                                                                 ch
                      theThe
                          Broad Foundation
                             Foundation


                                                                               Te
                                                                                                                                                        4
             Summary of Observations
•   TVA’s current ethics and compliance program has many
    pockets of activities that, in themselves, appear to be well
    managed.
•   However, a centralized and more broadly defined program
    would provide a coherent approach to address these key
    elements:
     – Creating a more extensive ethics program
        • Training and communications
        • Principles to guide behavior
     – Reviewing and tracking ethics issues
     – Organizing a corporate approach to ethics and compliance




                                                                   5
   I. Creating a More Extensive Ethics Program
                                     Training and Communications
Leading Practice                          Observations at TVA                                   Recommendation
An effective ethics          TVA’s ethics training is presently driven by the          Develop and deliver ethics training to all
training program             requirements of the Office of Government Ethics           officers and employees, using both
reaches all employees.       (OGE). The Annual Ethics Training module (2005)           facilitated and computer-based training.
                             from the Office of the General Counsel (OGC) is a         The training should address basic
                             computer-based method of instruction. While the           principles to guide behavior and apply
                             module briefly mentions general principles, it focuses    those principles in real-life scenarios
                             primarily on three rules: gift acceptance, conflicts of   from the work environment. In addition
                             interest, and use of resources. OGC advised that          to this organization-wide training, further
                             approximately 20 percent of the TVA officer/              emphasize basic ethics training in new
                             employees population take this ethics training.           hire orientation.
Key attributes               Interviews with senior management showed TVA              Commitment to basic TVA values should
(“integrity,” “character”)   approaches hiring in a deliberate manner, with            be explicitly incorporated into all
are integrated in            background checks, references, and interviews. TVA        performance evaluation tools. Behavior-
personnel processes          could incorporate more behavior-based interviewing        based interviewing techniques should be
(hiring, performance         techniques to probe character as part of the hiring       taught for all hiring interviews to probe
management, rewards).        process. Regarding performance evaluations, TVA           for ethical behavior. All rewards and
                             indirectly incorporates some aspects of ethical           promotions should be reviewed for
                             behavior in its performance management process,           consistency regarding ethical behavior.
                             such as references to the Winning Behaviors.
                             However, the emphasis on Winning Behaviors
                             appears to emphasize getting along with others, as
                             opposed to applying core values that help the
                             enterprise succeed.

                                                                                                                                 6
     I. Creating a More Extensive Ethics Program
                            Training and Communications (cont’d)
Leading Practice                       Observations at TVA                                    Recommendation
A core message links     As a federal agency, TVA must use the OGE                    In its statements about ethical conduct,
ethical behavior to      Standards of Conduct for Employees of the Executive          TVA should strengthen the connection
overall organizational   Branch (Standards). While the Standards provide              between ethical behavior and overall
success.                 specifics related to gifts, conflicts of interest, and use   organizational success by consistently
                         of resources, the Standards do not articulate a              stating that ethical behavior is a key
                         broader commitment to ethical behavior or the                factor in fulfilling the mission of TVA.
                         practical reason for such a commitment. TVA’s New
                         Employee Experience (NEE) curriculum for TVA
                         employees links the goal, Achieve Excellence in
                         Business Performance and Public Service, to the 6
                         strategic objectives and 12 critical success factors,
                         one of which relates generally to ethical behavior.
                         TVA Employment Practice 1 Business Ethics states
                         that “ethical business practices increase TVA’s
                         efficiency and integrity by leading to sound business
                         decisions and improved internal operations.”
                         (However, other frequent references to values tend to
                         emphasize “getting along,” as opposed to
                         “accomplishing the mission.” That is why the link to
                         overall success should receive more emphasis.)




                                                                                                                                 7
  I. Creating a More Extensive Ethics Program
                             Training and Communications (cont’d)
Leading Practice                          Observations at TVA                                    Recommendation
Robust processes exist       Employees currently have several methods through            Communicate the availability and use of
for the raising of ethical   which to raise ethical issues, such as Human                all channels to raise ethical issues.
issues by employees.         Resources (HR), the TVA Ombudsman, OGC, chain               Incorporate discussion of channels and
                             of command, and/or Office of the Inspector General          how to manage raised issues in
                             (OIG) EmpowerLine. EmpowerLine is communicated              expanded ethics training.
                             through posters and through the current NEE
                             materials. However, the Annual Ethics Training for
                             selected employees does not discuss the availability
                             and use of EmpowerLine nor how managers and
                             supervisors should address issues raised by
                             subordinates. Since ethics training is not mandatory
                             for all employees, training is not currently a channel to
                             disseminate information on use of the hotline on a
                             broad basis.




                                                                                                                              8
     I. Creating a More Extensive Ethics Program
                              Training and Communications (cont’d)
Leading Practice                     Observations at TVA                                   Recommendation
New hire orientation    TVA’s NEE is a well-structured program to orient new       In new hire orientation, make explicit
emphasizes the          employees. Many of the NEE’s messages,                     references to organizational values and
importance of ethical   particularly the “Committed to Excellence” section,        how ethical behavior is crucial to
behavior.               touch on underlying organizational values (the             organizational success. A senior leader
                        foundation of ethical behavior), but there is little       from TVA should personally discuss
                        emphasis on how a commitment to these values               values with new employees. A course in
                        contributes to organizational success. While the NEE       ethics should be developed to include in
                        booklet refers to ethics, the references are to specific   the introductory courses for new hires.
                        rules rather than to guiding principles or values. In
                        addition, none of the introductory courses that are
                        part of new hire orientation address ethical standards.




                                                                                                                              9
     I. Creating a More Extensive Ethics Program
                                       Principles to Guide Behavior
Leading Practice                        Observations at TVA                                 Recommendation
The Code of Conduct is     As a federal agency, TVA must use the OGE                TVA should distill the 14 general
expressed in concise       Standards. These Standards provide a statement of        principles of the Standards into a one-
form (principles-based)    basic obligation to the public and 14 general            page summary that is easy to remember
and tied to mission and    principles but primarily contain detail about specific   and clearly linked to the success of
culture.                   rules. Any changes or additions to the Standards         TVA’s mission.
                           must be approved by OGE.


The Code of Conduct        There is no non-toleration clause in the OGE             At a minimum, TVA should emphasize
contains a non-            Standards nor could a non-toleration clause be           the importance of individuals identifying
toleration clause (i.e.,   identified in the reviewed TVA documents.                and raising ethical issues to protect the
employees have an                                                                   operations and reputation of TVA, as
obligation to report                                                                well as the consequences of not
unethical behaviors.                                                                reporting.
Failure to report these
violations would be a
violation of the Code of
Conduct and therefore
subject to disciplinary
action to include
termination of
employment).



                                                                                                                                10
   I. Creating a More Extensive Ethics Program
                          Principles to Guide Behavior (cont’d)
Leading Practice                   Observations at TVA                                  Recommendation
Management links       Interviews with TVA senior management revealed that      TVA executives should communicate
basic principles to    this approach was understood and valued but              when ethical issues have influenced
business decisions,    unevenly practiced.                                      business decisions and should coach
when applicable.                                                                managers and supervisors to do
                                                                                likewise.
Basic principles are   TVA communicates basic principles to selected            In addition to the TVA Supplier Code of
communicated to        business partners. For example, the TVA Supplier         Conduct, suppliers should be provided
business partners      Code of Conduct, January 2005 is a good summary of       with a condensed version of the TVA
(vendors, customers,   expectations and includes references to the use of the   Code of Conduct in order to better
etc.).                 OIG hotline.                                             facilitate the communication of basic
                                                                                expectations for the conduct of all
                                                                                business partners.




                                                                                                                      11
          II. Reviewing and Tracking Ethical Issues

Leading Practice                         Observations at TVA                                   Recommendation
Ethical issues and          Senior managers interviewed stated that contract           TVA senior leadership should
trends are addressed        management and safety reporting were activities            periodically identify several current
by management and           where there could be pressure for employees to make        activities where the probability of bad
compared to emerging        bad ethical decisions. Confidentiality of investigations   ethical judgment is highest. These
information from more       was also viewed as limiting the ability to learn from      activities may or may not be common
specific activities, such   incidents across the organization. One executive           across different business units or
as fraud prevention,        expressed the desire to “figure out” how to respect        functions. These areas should receive
controls, and testing to    confidentiality while enabling him to benefit from         focused attention on metrics/reporting,
help identify “hotspots.”   examples of emerging issues in other parts of TVA.         training, and audit, as well as on the
                                                                                       exercise of basic preventive actions (job
                                                                                       or client rotation, targeted training, spot
                                                                                       checks, formal controls). Emerging
                                                                                       issues and ongoing investigations from
                                                                                       these areas should be tracked as part of
                                                                                       the management process.




                                                                                                                                 12
         II. Reviewing and Tracking Ethical Issues

Leading Practice                      Observations at TVA                                   Recommendation
Raised issues are        According to the TVA senior managers interviewed,         Create a process for centrally tracking
addressed                issues are assigned to different “silos” (OIG, OGC) for   ethical issues from initial identification to
systematically. High-    investigation, with no central tracking of issues.        resolution. These tracked issues can
level decisions taken    Senior executives remarked on the lack of a               be summarized and trended for
on ethical matters are   consolidated report of issues.                            reporting to executive management and
disseminated to the                                                                the Board on a consistent basis. In
organization.                                                                      addition, the information on ethical
                                                                                   issues should be shared across
                                                                                   business units, so operational leaders
                                                                                   are aware of issues arising in other
                                                                                   business units and can be alert for
                                                                                   similar issues in their units. Each issue
                                                                                   should also be evaluated to effectively
                                                                                   communicate the issue and resolution
                                                                                   to the organization at large (with
                                                                                   adequate provisions for privacy
                                                                                   considerations).




                                                                                                                                   13
III. Why the Trend to Move Ethics and Compliance Out
           of the General Counsel’s Office?
 •   The roles and skills are different:
      – Managing ethics and compliance requires “baking” actions and
        behaviors into business activities. Ethics and compliance is
        fundamentally a management effort.
      – The General Counsel represents and protects the organization as a
        legal entity. This is a highly specialized role.
 •   A separation of duties benefits the organization:
      – The tools of the legal process, such as attorney-client privilege,
         should be used in a targeted way, not broadly.
      – The General Counsel, like Internal Audit, is a specialized group that
         can assist in independently evaluating the effectiveness of the
         Ethics and Compliance Programs.




                                                                                14
    III. Why the Trend to Oversee Compliance
           on a More Centralized Basis?
•   Senior leaders see themselves today as more accountable for
    compliance (due to SOX, Federal Sentencing Guidelines for
    Organizations, public demands, and visible “bad” examples).
•   When the management of compliance is too decentralized in silos,
    emerging issues may not see the full “light of day.”
•   Lateral communications of issues across business units are highly
    beneficial:
     – Issues emerging in one unit can alert other units of the issue.
     – Reactions to emerging issues can become more uniform.
     – Best practices can be communicated quickly.
•   Central oversight of compliance does NOT mean diluting expertise,
    accountability, or responsibility in a business unit (e.g., compliance
    expertise in the nuclear and fossil fuel business units).
•   The trend: Compliance Program Management at the corporate level.

                                                                             15
                   III. Background, Expanded




                                                                                                                                 :.
                                                                                                                               pl
                                                                                                                              m
                                                                                                                           Co
                                                                                                                       d
                                                                                                                      an
                Leadership: making ethics and compliance




                                                                                                                  s
                                                                                                                ich
                                                                                                               Et
                       an integral part of business




                                                                                                            of
                                                                                                          s
                     (CECO coordinates across TVA)




                                                                                                       er
                                                                                                     iv

                                                                                                   sk
                                                                                                  Dr

                                                                                                 Ri
                                                                                                e
                                                                                              Th

                                                                                             nd
      Compliance: the Letter, the Targeted Actions




                                                                                           a
                                                                                         y
                                                                                oc olic

                                                                                       s
                                           IV.




                                                                                    se
                                                                                     P
                 II.          III.                     V.
    I.                                  Industry                    VI.




                                                                                  es
            Information   Organiza-                  Market-
Financial                               Specific/               Individual
             Privacy &      tional                   Facing




                                                                                Pr
Reporting                              Regulatory              Responsibility
              Security    (internal)                Marketing,
  CFO                                    CECO,                      HR
                CIO           HR                     PR, GC




                                                                                            le
                                          BU’s




                                                                                          op

                                                                                        gy
                                                                                       Pe

                                                                                      lo
                         Ethics: the Spirit,
                              Ethics:




                                                                                    no
                                                                                  ch
                      theThe
                          Broad   Foundation
                              Foundation


                                                                                Te
                              (CECO)
                                                                                                                                 16
III. Organizing a Corporate Approach
to Ethics and Compliance
  Leading Practice                      Observations at TVA                                   Recommendation
 The organization’s Chief     Like the vast majority of federal agencies, TVA     Establish the position of CECO, reporting to
 Ethics and Compliance        has its Designated Agency Ethics Officer (DAEO)     Chief Executive Officer with a dotted line to the
 Officer (CECO)               reporting to the General Counsel. The role of the   Audit Committee. The CECO would be
 possesses sufficient         DAEO is also a part-time duty for the Assistant     responsible for:
 organizational credibility   General Counsel. There is no corporate CECO.        • Directing the ethics program as the DAEO and
 and influence to manage                                                          coordinating the compliance programs across
 and address emerging                                                             TVA.
 issues and to coordinate                                                         • Inventorying the various compliance demands
 with business unit and                                                           that guide TVA’s business activities.
 functional leaders.                                                              • Sharing ethics and compliance issues and
                                                                                  actions across business.
                                                                                  • Identifying different areas of expertise within
                                                                                  TVA that must keep current with regulations and
                                                                                  regulatory decisions.
                                                                                  • Coordinating with ethics and compliance
                                                                                  officers in business units (dotted line to the
                                                                                  corporate CECO).
                                                                                  • Chairing the Ethics and Compliance
                                                                                  Management Group that brings together the
                                                                                  functions (e.g., Finance, HR) and business units
                                                                                  to review and trend ethics and compliance
                                                                                  issues.
                                                                                  • Reporting to executive leadership and the
                                                                                  Board.


                                                                                                                             17
III. Compliance Program Management – Leading Practices
  The leading practices on the following pages guide corporate CECOs in
  managing an organization’s compliance. Adoption of these leading practices
  would enable TVA to “stay ahead” of compliance requirements, disseminate
  essential compliance insights across TVA, and achieve a coherent approach to
  compliance throughout the entire organization.

  Based on interviews with TVA management and review of TVA documentation,
  TVA is already engaged in leading practices in highly regulated areas,
  such as TVA Nuclear and TVA Fossil Power Group.




                                                                            18
III. Compliance Program Management – Leading Practices
   •   The corporate CECO coordinates the management of compliance
       and the sharing of information across the corporation through a
       compliance management group.
       – At the corporate level, all key functional leaders (Finance, Marketing,
         Information Technology, HR, General Counsel, Internal Audit, etc.) and
         representatives from the business units coordinate the approach to
         compliance and benefit from comparing issues.
       – Coordination fosters identification of compliance “hotspots,” areas that could
         require concentrated efforts and corporate attention.
       – Compliance performance expectations are integrated into routine processes,
         such as hiring and staffing criteria, job descriptions, performance evaluations,
         and rewards/recognition.




                                                                                            19
III. Compliance Program Management – Leading Practices
   •   Inventory and prioritize compliance requirements.
        – Extensive “waterfront” of various and varied compliance requirements is
          captured at the corporate level.
        – Compliance responsibilities are clearly assigned to functional and business
          unit leaders.
        – Compliance requirements are prioritized by risk within each major compliance
          grouping.

   •   Map requirements to processes, roles, and tasks.
        – Compliance requirements are clearly defined for all business processes,
          down to specific tasks.
        – Compliance requirements are identified for each specific role.
        – Technology is employed where applicable to facilitate integration of
          compliance requirements to business activities.




                                                                                     20
III. Compliance Program Management – Leading Practices
   •   Compliance Training
       – From the mapping of compliance requirements to business activities and
         roles, compliance training is structured by job position.
       – A detailed plan for compliance training is established and linked to the
         company’s training system.
       – Compliance training is tracked and enforced. In high-risk, high-visibility
         activities, compliance training is set as a pre-condition to perform in a given
         role.
       – Compliance training is assessed and upgraded as needed, especially in light
         of new or altered regulations or court decisions.




                                                                                           21
III. Compliance Program Management – Leading Practices
   •   Compliance structure and accountability – integrate compliance
       into basic operations.
       – Functional leaders have clearly defined accountabilities and responsibilities
         (i.e., center of expertise, updates, voice to regulators, setting performance
         standards, monitoring controls and testing, reporting).
       – Business unit leaders have clearly defined accountabilities and
         responsibilities (i.e., setting and enforcing performance standards, executing
         controls and testing, reporting, raising issues).




                                                                                          22
 Management’s Comments and Our Evaluation
TVA’s President and Chief Executive Officer agreed with our
recommendation to establish the position of Ethics and Compliance
Officer and indicated implementation details would be addressed after
the appointment. We concur in the proposed actions.




                                                                 23
